TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Significant Improvements Have Been Made
                     to Protect Sensitive Data on Laptop
                         Computers and Other Portable
                           Electronic Media Devices



                                         August 31, 2009

                              Reference Number: 2009-20-120




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              August 31, 2009


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                  (for) Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Significant Improvements Have Been Made to
                             Protect Sensitive Data on Laptop Computers and Other Portable
                             Electronic Media Devices (Audit # 200820025)

 This report presents the results of our review to follow up on a prior audit report1 and determine
 whether the Internal Revenue Service (IRS) is adequately protecting sensitive data on laptop
 computers and other portable electronic media devices. We also evaluated the controls over
 incident reporting and backup data. This audit was included in the Treasury Inspector General
 for Tax Administration Fiscal Year 2008 Annual Audit Plan and is part of our statutory
 requirement to annually review the adequacy and security of IRS technology.

 Impact on the Taxpayer
 The IRS annually processes more than 220 million tax returns containing personal financial
 information and personally identifiable information such as Social Security Numbers. While the
 IRS has made significant improvements to protect sensitive data on laptop computers and other
 portable electronic media devices, controls over incident reporting and backup data require
 additional improvements. As a result, taxpayers may not be notified when security incidents
 involving their personal data have occurred and taxpayer data may be at risk of theft and
 unauthorized disclosure.




 1
  The Internal Revenue Service Is Not Adequately Protecting Taxpayer Data on Laptop Computers and Other
 Portable Electronic Media Devices (Reference Number 2007-20-048, dated March 23, 2007).
                               Significant Improvements Have Been Made to
                              Protect Sensitive Data on Laptop Computers and
                                  Other Portable Electronic Media Devices



Synopsis
The IRS has effectively implemented encryption technologies on laptop computers and other
portable storage devices. These systemic encryption solutions have strengthened the protection
of taxpayer data and personally identifiable information and have reduced the chance of
unauthorized disclosure of sensitive data when laptop computers and other portable electronic
media are lost or stolen. The IRS has also taken actions to assist employees with securing laptop
computers and sensitive data by purchasing cable locks for laptop computers, implementing a
comprehensive training strategy that instructs employees on the process for reporting lost or
stolen items, and informing employees of their responsibilities for securing sensitive data.
Although the IRS has made significant improvements relating to controls over electronic media
and the protection of sensitive data, we identified two areas where continued diligence is needed.
First, processes for tracking security incidents could be enhanced to ensure that all incidents are
properly handled. During our prior review, we identified inadequate coordination between the
IRS Computer Security Incident Response Center2 and the Treasury Inspector General for Tax
Administration Office of Investigations3 to ensure proper reporting of security incidents. During
this review, the number of reported incidents known by both the Computer Security Incident
Response Center and the Office of Investigations had significantly increased to 96 percent of all
related incidents, although we found incidents relating to hard copy losses that were not shared
between both organizations. We believe all incidents should be reported in a timely manner and
shared between all affected organizations. The timely reporting and sharing of incident
information enables the IRS to continue to meet incident reporting time periods, fulfill taxpayer
notification requirements, and apply consistent disciplinary actions for employee negligence.
Second, the IRS needs to enforce controls for protecting backup data from unauthorized
disclosure and ensuring its availability in the event of a disaster. During our prior review, the
IRS was not encrypting backup data that were sent to offsite storage facilities, was not
performing annual inventory validations of the backup data, and was not always performing
periodic reviews of the approved access list of employees authorized to access the offsite storage
facilities. During this review, we found that the IRS had revised its processes and procedures
and no longer required field offices to send its backup data to offsite facilities. We confirmed
that the two field offices we visited had implemented the new procedures to transmit their

2
  The IRS Computer Security Incident Response Center is responsible for ensuring security incidents are reported to
the Treasury Computer Security Incident Response Center, which serves as the central point of contact for escalating
incidents reported by its bureaus to the United States Computer Emergency Readiness Team, in compliance with
stringent time periods, and for funneling incidents involving potential loss of personally identifiable information to
the IRS Office of Privacy, Information Protection, and Data Security for a determination of whether taxpayers must
be contacted regarding compromised data.
3
  The Office of Investigations is responsible for investigating all incidents to determine if employee negligence was
involved and, if found, to provide a report to the IRS Human Capital Office.
                                                                                                                    2
                             Significant Improvements Have Been Made to
                            Protect Sensitive Data on Laptop Computers and
                                Other Portable Electronic Media Devices


backup data through the IRS secured network to an IRS Computing Center,4 where they were
encrypted before being sent to an offsite storage facility.
However, we visited one of the three IRS Computing Centers charged with controlling IRS
backup data and found that the annual inventory validation of the backup data at the offsite
facility was not conducted. In addition, the access list of IRS employees authorized to access the
data at the offsite facility had not been recently validated and 15 individuals who no longer had a
business need had access to the backup data. The IRS indicated these weaknesses were caused
by management turnover and a lack of management oversight over backup procedures.

Recommendations
The Chief Technology Officer should ensure that 1) the IRS collaborates with the Treasury
Inspector General for Tax Administration to revise the Memorandum of Understanding to ensure
all incidents involving personally identifiable information in electronic or hard copy form are
properly reported and shared between the IRS Computer Security Incident Response Center and
the Treasury Inspector General for Tax Administration Office of Investigations, and 2) all
backup data are properly protected from unauthorized access and disclosure.

Response
IRS management agreed with the recommendations. The IRS Computer Security Incident
Response Center will collaborate with the Treasury Inspector General for Tax Administration
Office of Investigations; the Office of Privacy, Information Protection, and Data Security; and
the IRS Office of Disclosure to revise the Memorandum of Understanding to better represent the
current environment of incident reporting and sharing. The Enterprise Operations organization
will initiate consolidation of media management into one organization to ensure consistency in
media management and policy. The Modernization and Information Technology Services
organization will ensure media management controls are in place to protect backup data from
unauthorized access and disclosure. Management’s complete response to the draft report is
included as Appendix IV.



4
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.




                                                                                                          3
                         Significant Improvements Have Been Made to
                        Protect Sensitive Data on Laptop Computers and
                            Other Portable Electronic Media Devices


Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services), at (202) 622-8510.




                                                                                           4
                                    Significant Improvements Have Been Made to
                                   Protect Sensitive Data on Laptop Computers and
                                       Other Portable Electronic Media Devices




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Actions Have Been Taken to Increase the Protection of
          Sensitive Data ...............................................................................................Page 3
          Although Controls Have Improved, Additional Steps Could
          Be Taken to Expand the Reporting of Incidents and the Protection
          of Sensitive Data ...........................................................................................Page 6
                    Recommendations 1 and 2: ..............................................Page 11


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Management’s Response to the Draft Report ......................Page 16
         Significant Improvements Have Been Made to
        Protect Sensitive Data on Laptop Computers and
            Other Portable Electronic Media Devices




                 Abbreviations

CSIRC     Computer Security Incident Response Center
IRS       Internal Revenue Service
MOU       Memorandum of Understanding
OI        Office of Investigations
PIPDS     Office of Privacy, Information Protection, and Data Security
TIGTA     Treasury Inspector General for Tax Administration
                                Significant Improvements Have Been Made to
                               Protect Sensitive Data on Laptop Computers and
                                   Other Portable Electronic Media Devices




                                              Background

The Internal Revenue Service (IRS) annually processes more than 220 million tax returns
containing personal financial information and personally identifiable information such as Social
Security Numbers. If lost or stolen, taxpayer data can be used for identity theft and other
fraudulent purposes. Identity theft refers to a crime in which someone wrongfully obtains and
uses another person’s personal data in some way that involves fraud or deception, typically for
financial or economic gain.
Most IRS employees use taxpayer information within IRS facilities to carry out their
responsibilities; however, some employees are allowed to take electronic taxpayer data outside
of the office for business purposes. For example, Revenue Agents may take electronic taxpayer
records outside of IRS facilities when conducting reviews with business taxpayers. When
taxpayer information is taken outside of the office, additional security controls are required, such
as:
    •    Physically protecting computer devices – Employees in possession of computer devices
         must adhere to specific security policies and handling procedures to minimize the chance
         of loss or theft of the device. For example, when transporting a laptop computer in a
         vehicle, an employee should store the computer in the vehicle’s trunk or in a place that is
         not visible from outside of the vehicle.
    •    Encrypting1 taxpayer data on computer devices – Even if a computer device is lost or
         stolen, the data are still protected if they were encrypted. Encryption ensures that no one
         other than the authorized user can access and view the data maintained on the computer
         device.
    •    Using software controls to limit access to computers – If a computer is lost or stolen, the
         data can still be protected, to some degree, by requiring the user to enter a valid username
         and corresponding password during the computer startup process.2 However, this control
         can sometimes be bypassed if the computer is not properly configured.




1
  Encryption is a method to convert readable text (i.e., plaintext) to unreadable text (i.e., ciphertext) by applying
mathematical algorithms and one or more encryption keys. This is generally performed to protect the
confidentiality, integrity, and authenticity of data during storage or transmission.
2
  This process represents a computer’s internal process of starting up when it is powered up. The process involves
the execution of preset instructions located on the computer’s hard drive, including startup of security features of the
computer, such as password protection.
                                                                                                                Page 1
                                Significant Improvements Have Been Made to
                               Protect Sensitive Data on Laptop Computers and
                                   Other Portable Electronic Media Devices



    •    Reporting incidents – Any employee who loses a computer must follow specific reporting
         instructions to ensure the proper authorities are notified. Actions should then be taken to
         disable user accounts and determine whether taxpayer data have been compromised.
In addition, data that are backed up and stored offsite so that operations can be restored in the
event of a disaster may also be at risk.3 If the backup location is not within the organization’s
control (e.g., a contractor’s site), security policies and procedures must be implemented to ensure
adequate data accountability and protection from unauthorized access.
Since 2003, we have conducted at least three reviews that included assessing controls over
sensitive data on laptop computers and other portable electronic media. These reviews found
internal control weaknesses in the IRS’ safeguarding of taxpayer data.4
This review was performed at IRS offices in Jacksonville, Florida; New Carrollton, Maryland;
Oklahoma City, Oklahoma; and Memphis, Tennessee, during the period September 2008 through
April 2009. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. Detailed
information on our audit objectives, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




3
  In the event of a disaster, it is possible that all data maintained at a facility where the disaster occurred could be
destroyed. For example, a building fire might destroy all data stored at the facility. An organization can reduce this
risk by maintaining backup data at a different facility.
4
  The Internal Revenue Service Is Not Adequately Protecting Taxpayer Data on Laptop Computers and Other
Portable Electronic Media Devices (Reference Number 2007-20-048, dated March 23, 2007); Secure
Configurations Are Initially Established on Employee Computers, but Enhancements Could Ensure Security Is
Strengthened After Implementation (Reference Number 2006-20-031, dated February 22, 2006); and Security Over
Computers Used in Telecommuting Needs to Be Strengthened (Reference Number 2003-20-118, dated July 1, 2003).
                                                                                                               Page 2
                             Significant Improvements Have Been Made to
                            Protect Sensitive Data on Laptop Computers and
                                Other Portable Electronic Media Devices




                                    Results of Review

Actions Have Been Taken to Increase the Protection of Sensitive Data
In March 2007, we reported5 that sensitive data were not encrypted on laptop computers and
other electronic media and that access controls were incorrectly configured and could be
circumvented to gain access to unencrypted sensitive data. In addition, we reported that physical
security was not adequate over computer equipment. We found that laptop computers
overwhelmingly represented the largest category of lost or stolen items each year, and employees
who were negligent for the losses or thefts were rarely disciplined. These deficiencies made the
IRS vulnerable to unauthorized disclosure of taxpayer data and loss of personally identifiable
information, both of which can be used for identity theft purposes. The IRS implemented the
recommendations from this prior report, resulting in increased protection of sensitive data.
In addition, one of the recommendations from our prior report dealt with implementing a
systemic disk encryption solution on laptop computers. This solution, also known as hard disk
encryption, encrypts the entire hard drive and requires access authentication whenever the laptop
computer is operational. The IRS agreed with the recommendation and replied that it would
implement an enterprise-wide hard disk encryption solution for its laptop computers.
During this review, the IRS provided us with documentation reflecting that 99 percent of its
laptop computers contained the hard drive encryption program. During our review of 100 laptop
computers in 4 IRS offices, we confirmed that all 100 laptop computers had the hard disk
encryption software installed and that the software was functioning as intended. This solution
dramatically improved the protection of sensitive data on laptop computers and resolved the
access control deficiencies cited in our prior report. Only after a successful logon to the
encryption software will the computer start the logon process to access other system files.
Consequently, any sensitive data on the computer remains encrypted until a user has successfully
logged on and deactivated the encryption.
Because files on the hard drive are no longer encrypted after a laptop computer has been turned
on, the IRS still requires employees to encrypt sensitive files on a laptop computer using the
Microsoft Windows Operating System encryption program, also known as the Encrypting File




5
 The Internal Revenue Service Is Not Adequately Protecting Taxpayer Data on Laptop Computers and Other
Portable Electronic Media Devices (Reference Number 2007-20-048, dated March 23, 2007).
                                                                                                     Page 3
                               Significant Improvements Have Been Made to
                              Protect Sensitive Data on Laptop Computers and
                                  Other Portable Electronic Media Devices



System.6 During this review, we found that 23 of 100 laptop computers had unencrypted
sensitive files that could be accessed by anyone who logged on to the laptop computer after the
hard disk encryption had been deactivated. These files represent taxpayer data, such as Social
Security Numbers or Taxpayer Identification Numbers on various tax forms, as well as
personally identifiable data of the employee. While these results represent an improvement over
our prior audit results where 44 of the 100 laptops tested were noncompliant, the IRS should
remain diligent in reinforcing use of its encryption technologies through its annual security
training and periodic reminders to employees. We believe the risk of this issue is lessened by the
hard drive encryption previously discussed, which protects all files when the laptop computer is
turned off.
In addition to the hard disk encryption, the IRS has implemented an encryption solution over
data that are transferred to an external media outlet, such as a removable media storage device or
computer disk. We confirmed that the encryption solution was installed on all 100 laptop
computers we reviewed. These systemic encryption solutions have strengthened the protection
of taxpayer data and personally identifiable information at the IRS, and the encryption solutions
have reduced the chance of unauthorized disclosure of sensitive data when portable electronic
media devices are lost or stolen.
The IRS has also taken actions to assist employees with securing laptop computers and sensitive
data. One of the recommendations in our prior report dealt with the purchase of cable locks for
computers and providing employees with related security awareness training. The IRS
completed these corrective actions. During our review of the 100 laptop computers, we found
that 99 employees used cable locks to secure their laptop computers and 96 employees had
received training or instructions on how to secure laptops, use encryption, and report lost or
stolen laptops.
IRS employees reported a total of 866 incidents during the period June 14, 2006, to
September 17, 2008. We categorized the 866 incidents by item type and found that laptop
computers continued to represent the largest number of incidents (270 incidents) of lost or stolen
items. Laptop computers are attractive targets for thieves. No organization is impervious to
theft or loss of devices containing sensitive data, especially an organization as large as the IRS,
with approximately 100,000 employees and more than 40,000 laptop computers. The IRS has
informed employees of their responsibilities for securing sensitive data and the penalties
associated with negligence.7 In April 2008, the IRS implemented procedures for tracking
employee negligence cases to ensure that all are consistently processed and appropriate penalties


6
  Under the Encrypting File System, laptop computers are configured to encrypt data residing in specific file folders
on the hard drive. Employees need only to save sensitive files to these file folders and the computer will
automatically encrypt the files.
7
  Negligence is the failure to exercise that degree of care that would have been exercised by a reasonable person
under the same circumstances.
                                                                                                             Page 4
                             Significant Improvements Have Been Made to
                            Protect Sensitive Data on Laptop Computers and
                                Other Portable Electronic Media Devices



are applied. During this review, we determined that 152 of the 866 incidents involved employee
negligence and could have been prevented if the employees had followed IRS policies and
procedures. Nineteen of the 152 incidents occurred since April 2008. We reviewed these
19 incidents to determine whether the new disciplinary processes were effective. We were
encouraged to find that 17 of the 19 incidents were being processed in accordance with the newly
implemented procedures. However, most of these incidents were still under investigation during
the time of our review, and we were unable to make a reliable evaluation on the effectiveness of
the new procedures.
The number of reported incidents relating to lost or stolen media potentially containing sensitive
taxpayer and employee data continued to increase from Calendar Year 2003 to Calendar
Year 2008, as illustrated by Figure 1.
                     Figure 1: Number of Incidents of Theft or Loss
                 of Computer Equipment and/or Taxpayer Data Per Year


       600
                                                                                    456
       500
                                                                       364

       400
                                                         245
       300
                                           134
                               96
       200        76

       100


         0
                2003          2004         2005         2006          2007          2008
                                                                                (projected)*


 * We obtained incidents through September 17, 2008, and made a projection through the end of Calendar
 Year 2008 using a direct proportional ratio.
 Source: Our analysis and projection based on IRS Computer Security Incident Response Center and
 Treasury Inspector General for Tax Administration Office of Investigations data.

We believe this upward trend is due, in part, to the increased reporting of incidents by IRS
employees. Based on recommendations from our prior report, the IRS implemented a
comprehensive training strategy that instructed employees on the process for reporting lost or

                                                                                                         Page 5
                              Significant Improvements Have Been Made to
                             Protect Sensitive Data on Laptop Computers and
                                 Other Portable Electronic Media Devices



stolen items. In Calendar Year 2006, the IRS provided additional guidance to employees to
report lost or stolen sensitive data within 1 hour of the incident, in compliance with new Federal
Government reporting requirements. As a result of the 1-hour reporting rule, we noted that
current statistics likely included incident reports of lost or stolen items that were subsequently
recovered. Employees may not have reported these incidents under previous reporting
guidelines.
According to a Calendar Year 2008 survey by the Computer Security Institute,8 theft of laptops
or other mobile devices was the third most frequently occurring incident (42 percent) at
respondents’ organizations. In addition, the survey found that the cost of the loss of customer or
employee confidential data averaged $268,000 per incident. Therefore, the loss of a laptop
computer may be quite expensive if it contains unencrypted sensitive data. Replacing lost or
stolen laptops that were encrypted generally does not cost more than the replacement and
associated administrative costs. While we have some concerns with the upward trend of overall
incidents, we believe the IRS has effectively mitigated much of the risk of unauthorized
disclosure of sensitive data by systemically encrypting the data on laptop computers and other
electronic devices.

Although Controls Have Improved, Additional Steps Could Be Taken
to Expand the Reporting of Incidents and the Protection of Sensitive
Data
While the IRS has made significant improvements relating to controls over electronic media and
the protection of sensitive data, continued diligence is necessary to ensure taxpayer data are fully
protected. We identified two areas where the IRS could take actions to improve the protection of
sensitive data. First, processes for tracking reported security incidents between organizations
need improvement to ensure that all affected organizations receive and exchange information
related to the incident in a timely manner. Second, the IRS needs to enforce controls for
protecting backup data from unauthorized disclosure and ensuring its availability in the event of
a disaster. As a result of deficiencies in these areas, taxpayers may not be notified when security
incidents involving their personal data have occurred and taxpayer data may be at risk of theft
and unauthorized disclosure.




8
  The 2008 CSI Computer Crime and Security Survey, by Robert Richardson, Director of Computer Security
Institute, was based on the responses of more than 500 computer security practitioners from government and private
institutions. According to the survey, virus incidents occurred most frequently (49 percent) at respondents’
organizations in 2008. Insider abuse of networks was the second-most frequently occurring incident (44 percent).
                                                                                                          Page 6
                           Significant Improvements Have Been Made to
                          Protect Sensitive Data on Laptop Computers and
                              Other Portable Electronic Media Devices



Incident reporting controls could be enhanced to ensure better tracking and
processing of incidents
The Office of Management and Budget requires Federal Government agencies to report all
incidents involving personally identifiable information, in electronic or hard copy form, to the
United States Computer Emergency Readiness Team within 1 hour of discovering the incident,
without taking the time to distinguish between suspected and confirmed security breaches. In
order to comply with Federal regulations, IRS employees are required to report security incidents
immediately upon identification, not to exceed 1 hour, to 1) the employee’s immediate manager,
2) the IRS Computer Security Incident Response Center (CSIRC), and 3) the Treasury Inspector
General for Tax Administration (TIGTA) Office of Investigations (OI). The CSIRC is
responsible for reporting the incidents to the Treasury Computer Security Incident Response
Center, which serves as the central point of contact for escalating incidents reported by its
bureaus to the United States Computer Emergency Readiness Team, meeting the stringent
reporting time periods set by the Office of Management and Budget.
The CSIRC is also responsible for directing incidents involving potential loss of personally
identifiable information to the IRS Office of Privacy, Information Protection, and Data
Security (PIPDS). Lost or compromised personally identifiable information may be used to
perpetrate identity theft or other forms of fraud if the information falls into unauthorized hands.
Personally identifiable information is information in either electronic or hard copy format that
can be used to distinguish or trace an individual’s identity, such as an individual’s name, Social
Security Number, Individual Taxpayer Identification Number, or address.
The PIPDS manages the process within the IRS to notify individuals who are at high risk of
harm following a loss of personally identifiable information. The affected individuals are
notified without unreasonable delay following a risk assessment of the incident. The IRS sends a
concise notification to affected individuals, which includes free credit monitoring services for
1 year and other useful information and contacts to assist the taxpayer in protecting themselves
from harm. For example, from October 1, 2006, to September 17, 2008, the PIPDS identified
132 incidents for which the risk of identify theft or other harm was likely, and sent notification
letters to 17,498 potentially affected taxpayers.
The TIGTA OI is responsible for investigating all incidents to determine whether employee
negligence was involved and, if found, to provide a report to the IRS Human Capital Office.
Based on the OI report and the pertinent facts of the case, the Human Capital Office works with
the employee’s respective manager to determine the appropriate penalty. It also tracks the
disciplinary actions taken against negligent employees.
During our prior review, we identified inadequate coordination between the IRS CSIRC and the
TIGTA OI to ensure proper reporting of security incidents. We found that IRS employees did
not consistently report security incidents to both the CSIRC and the OI as required by IRS
policy. As a result, of the 387 incidents that occurred from January 2, 2003, to June 13, 2006,

                                                                                              Page 7
                              Significant Improvements Have Been Made to
                             Protect Sensitive Data on Laptop Computers and
                                 Other Portable Electronic Media Devices



the CSIRC was aware of 91 (24 percent) incidents and the OI was aware of 296 (76 percent)
incidents. Of the incidents that each organization was aware of, the CSIRC shared 42 incidents
with the OI, and the OI did not share any incidents with the CSIRC.
To correct this condition, the CSIRC and the OI entered into a Memorandum of
Understanding (MOU), effective December 28, 2006, that defined their joint responsibilities for
tracking and sharing computer security incidents involving the loss or theft of information
technology assets.9 Each organization was to monitor reported incidents in separate tracking
systems, assign case numbers, provide automated notification of received incident reports to the
other organization, and perform monthly reconciliations of the incident reports received to
ensure all incidents were properly documented.
Our current review found that the number of reported incidents known by both the CSIRC and
the OI significantly increased. From January 1, 2007, to September 17, 2008, 535 incidents
occurred that were required to be shared under the MOU. Of the 535 incidents, the CSIRC was
aware of 515 (96 percent) and the OI was aware of 514 (96 percent). We attribute this
significant improvement to the IRS informing employees of their responsibilities for reporting
incidents and to the CSIRC and OI implementation of automated notification of received
incidents to each other in accordance with the MOU.
However, we believe additional improvements are needed to ensure all incidents are known by
both the CSIRC and the OI so that all incidents are properly addressed. Of the 535 incidents, the
OI was unaware of 21 incidents that were in the CSIRC tracking system. The OI determined that
the CSIRC had not sent automated notification for 7 of these 21 incidents, and that the OI had
not captured 14 incidents that the CSIRC had sent. Incidents that are not captured by the OI may
not be evaluated for employee negligence or investigative purposes.
Of the 535 incidents, the CSIRC was unaware of 20 incidents that were in the OI tracking
system. The CSIRC determined that the OI had not sent automated notification for 18 of these
20 incidents, and the CSIRC had not captured 2 incidents that the OI had sent. Incidents that
were not captured by the CSIRC may not meet reporting deadlines or may not be routed to the
PIPDS for determination of whether taxpayers should be notified.
The MOU required the CSIRC and the OI to collaboratively perform reconciliations of their
separate tracking systems to ensure that all incidents had been captured by both organizations.
However, neither the CSIRC nor the OI were performing such reconciliations to identify
incidents that had not been shared. During our review, we found that the two tracking systems
do not have a common case identifier, making it very difficult and tedious to perform a
reconciliation. The CSIRC assigns a unique case identifier to each incident it receives, and the
OI assigns a complaint number. The CSIRC modified its tracking system to capture the OI

9
 Information technology assets include desktop computers, laptop computers, servers, Blackberries, CD/DVD, flash
drives, floppy discs, and other portable media.
                                                                                                        Page 8
                           Significant Improvements Have Been Made to
                          Protect Sensitive Data on Laptop Computers and
                              Other Portable Electronic Media Devices



complaint number when inputting cases sent by the OI. However, differences in the case data
that the CSIRC and the OI record and timing differences for when automated notifications are
sent and when case and complaint numbers are assigned, make it difficult to match cases in the
two tracking systems and to reconcile differences.
In addition, the MOU required sharing only the loss or theft of information technology assets,
which left some important incidents unshared. For example, we identified 85 incidents involving
the loss of taxpayer data in hard copy format that occurred during the period the MOU was in
effect and, therefore, were not required to be shared between the CSIRC and the OI. Of these
85 incidents, the CSIRC tracking system contained 63 incidents that were not in the OI tracking
system, and the OI tracking system contained 22 incidents that were not in the CSIRC tracking
system. Therefore, these 22 incidents were not sent to the PIPDS for review to determine
whether taxpayers should be notified. In general, the loss of hard copies that contain taxpayer
data are of higher risk than the loss of computer equipment because hard copies are not
encrypted. The PIPDS must also ensure taxpayers are timely informed and offered assistance in
these instances.
Continued efforts are needed to ensure that all security incidents are captured by both
organizations to properly address and reconcile incident reporting. Limiting the type of incidents
to share and not reconciling all incidents known by each organization may prevent the IRS from
meeting incident reporting time periods, fulfilling taxpayer notification requirements, and
applying consistent disciplinary actions for employee negligence.
Management Actions: Subsequent to completion of our fieldwork, the IRS CSIRC and the
TIGTA OI met to collaborate on a solution and agreed that the MOU needed revision to better
represent the current environment of incident reporting. Possible revisions include developing a
better definition of what constitutes personally identifiable information (i.e., inclusion of hard
copy records) and enhancing the reporting process by using a common identifier to ensure
transparent reporting. The discussion included consideration of designating the CSIRC as the
central point of contact in order to reduce employee burden for making three contacts when an
incident occurs, and to better ensure the CSIRC can fulfill the 1-hour reporting requirement.

Controls over backup data have improved but require additional enhancements to
fully protect taxpayer data
The IRS requires that data at each of its offices be backed up to facilitate business resumption
efforts in the event of a disaster. This backup data should be stored offsite to ensure its
availability and be encrypted to protect against unauthorized disclosure. To further protect this
backup data, the IRS requires that all IRS offices conduct an annual inventory of their backup
data to guarantee all data are properly accounted for and to periodically validate the list of
employees who are authorized to access the backup data at offsite storage facilities to ensure its
protection.

                                                                                             Page 9
                             Significant Improvements Have Been Made to
                            Protect Sensitive Data on Laptop Computers and
                                Other Portable Electronic Media Devices



During our prior review, the IRS was not encrypting backup data that were sent to offsite storage
facilities. In addition, the IRS was not performing annual inventory validations of the backup
data and was not always performing periodic reviews of the approved access list of employees
authorized to access the offsite storage facilities. We recommended that the IRS encrypt backup
data prior to it being sent offsite and conduct the annual inventory validations and verifications
of employees on access lists as required. The IRS agreed with our recommendations.
During this review, we found that the IRS revised its processes and procedures and no longer
required some offices to send their backup data to offsite facilities. The new procedures require
field offices to electronically transmit their backup data through a secured network to one of
three IRS Computing Centers.10 The Computing Centers then encrypt the backup data prior to
sending the data to offsite storage facilities. We confirmed that the two field offices we visited
had implemented the new procedures to transmit their backup data through the IRS secured
network to the Computing Center, where they were encrypted before being sent to offsite
storage.
To follow up on the backup issues at offsite facilities, we visited one of the three IRS Computing
Centers charged with controlling IRS backup data. We confirmed that the data were encrypted
prior to being sent to offsite storage. However, the IRS did not conduct the annual inventory
validation of the backup data at the offsite facility. We selected 30 computer tapes from the
inventory listing and physically accounted for all of the tapes. In addition, the IRS had not
validated the access list of IRS employees authorized to access the backup data at the offsite
facility since December 2007. As a result, we identified 15 individuals on the access list who no
longer had a business need to have access to the backup data at the offsite facility.
Lastly, the one headquarters office we visited was not sending its backup data offsite or securing
it as required. The data were being maintained onsite, leaving them vulnerable to the same
disaster that potentially could disable the headquarters office. While this issue did not
specifically involve the protection of backup data from unauthorized individuals, it could
potentially affect the availability of the data if a disaster occurs at that headquarters office.
The IRS indicated these weaknesses were caused by management turnover (including retirement,
reassignment, and promotion of managers) and a lack of management oversight over backup
procedures. These backup data inventory and access weaknesses increase the risk that sensitive
data, including personally identifiable information, could be lost or stolen from offsite storage
facilities. In addition, not storing backup data securely or at an alternative location puts the data
at risk of being permanently destroyed in the event of a disaster.




10
   IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
                                                                                                     Page 10
                           Significant Improvements Have Been Made to
                          Protect Sensitive Data on Laptop Computers and
                              Other Portable Electronic Media Devices



Recommendations
The Chief Technology Officer should ensure that:
Recommendation 1: The IRS collaborates with the TIGTA to revise the MOU to ensure that
all incidents involving personally identifiable information in electronic or hard copy form are
properly reported and shared between the IRS CSIRC and the TIGTA OI.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       CSIRC will collaborate with the TIGTA OI, the PIPDS, and the IRS Office of Disclosure
       to revise the MOU to better represent the current environment of incident reporting and
       sharing.
Recommendation 2: All backup data are properly protected from unauthorized access and
disclosure. Specifically, IRS offices should 1) follow policies and procedures for sending
backup data to designated locations, 2) conduct annual inventory reconciliations of stored
backup media at all offsite storage facilities in accordance with IRS policy, and 3) validate lists
of IRS employees authorized to access the backup data at offsite storage facilities when changes
occur or at least annually.
       Management’s Response: The IRS agreed with this recommendation. To ensure
       consistency in media management policies and procedures, the Enterprise Operations
       organization will initiate consolidation of media management into one organization. The
       Modernization and Information Technology Services organization will also ensure
       backup media is properly protected from unauthorized access and disclosure by ensuring
       media management controls and encryption are in place. In addition, the Modernization
       and Information Technology Services organization will follow policies and procedures
       for sending and maintaining backup data to designated offsite storage facilities and will
       schedule and conduct regular offsite storage facility reconciliations as documented in IRS
       procedures and validate the authorized access list on an annual basis.




                                                                                            Page 11
                                Significant Improvements Have Been Made to
                               Protect Sensitive Data on Laptop Computers and
                                   Other Portable Electronic Media Devices



                                                                                                     Appendix I

         Detailed Objectives, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is adequately protecting
sensitive data on laptop computers and other portable electronic media devices. The audit
focused on the security of laptop computers and the encryption1 of sensitive data maintained on
laptop computers. We also evaluated the controls over incident reporting and the storage
methods for backup tapes at non-IRS offsite facilities.
To accomplish our objectives, we:
I.       Determined the effectiveness of procedures and controls implemented to protect sensitive
         data on laptop computers and other portable electronic media.
         A. Analyzed the reporting of 866 incidents involving the loss or theft of electronic
            devices or hard copy documents from June 14, 2006, to September 17, 2008, received
            from the IRS CSIRC2 and the TIGTA OI.3 For each incident, we:
             1. Identified how the incident occurred and determined whether the laptop contained
                sensitive information based on the information provided.
             2. Determined whether the incident was reported to the CSIRC and the OI.
         B. Selected a judgmental sample of 100 laptop computers from 4 IRS Area Offices. The
            four sites visited were Oklahoma City, Oklahoma; Jacksonville, Florida; Memphis
            Computing Center, Memphis, Tennessee; and New Carrollton, Maryland. We used a
            judgmental sample because we were not projecting the review results.
         C. At the four sites, we:
             1. Interviewed the 100 employees to which the sample of 100 computers were
                assigned to determine whether employees used cable locks to protect their


1
  Encryption is a method to convert readable text (i.e., plaintext) to unreadable text (i.e., ciphertext) by applying
mathematical algorithms and one or more encryption keys. This is generally performed to protect the
confidentiality, integrity, and authenticity of data during storage or transmission.
2
  The CSIRC is responsible for ensuring security incidents are reported to the United States Computer Emergency
Response Team, in compliance with stringent time periods and for funneling incidents involving potential loss of
personally identifiable information to the IRS PIPDS for a determination of whether taxpayers must be contacted
regarding compromised data.
3
  The OI is responsible for investigating all incidents to determine if employee negligence was involved and, if
found, to provide a report to the IRS Human Capital Office.
                                                                                                              Page 12
                                Significant Improvements Have Been Made to
                               Protect Sensitive Data on Laptop Computers and
                                   Other Portable Electronic Media Devices



                  computers and whether they recalled receiving encryption and incident reporting
                  training.
             2. Determined whether taxpayer information stored on laptop computers was
                unencrypted by analyzing the hard drives on the 100 laptop computers.
             3. Evaluated the controls over the protection of the startup process4 on the sample of
                100 laptop computers.
II.      Determined the effectiveness of procedures and controls implemented to protect sensitive
         data on media such as backup media.
         A. Assessed the security and encryption placed on backup media that are to be stored at
            a non-IRS offsite facility.
         B. Assessed the adequacy of the physical security controls where the media were stored.
         C. Reconciled the list of backup media to assess the accuracy and completeness of the
            written inventory.
         D. Judgmentally selected 30 computer tapes from the inventory listing at 1 IRS
            Computing Center5 and physically accounted for all of the tapes. We used a
            judgmental sample because we were not projecting the results of the review and were
            unable to readily determine the total number of computer tapes stored at the facility.
         E. Validated the list of IRS employees authorized to access the facility and the data.




4
  This process represents a computer’s internal process of starting up when it is powered up. The process involves
the execution of preset instructions located on the computer’s hard drive, including startup of security features of the
computer, such as password protection.
5
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
                                                                                                              Page 13
                         Significant Improvements Have Been Made to
                        Protect Sensitive Data on Laptop Computers and
                            Other Portable Electronic Media Devices



                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Systems Technology Services)
Kent Sagara, Acting Director
Jody Kitazono, Acting Audit Manager
Alan Beber, Senior Auditor
Charles Ekunwe, Senior Auditor
George Franklin, Senior Auditor
Bret Hunter, Senior Auditor
Louis Lee, Senior Auditor
Midori Ohno, Senior Auditor
Linda Screws, Senior Auditor
Louis Zullo, Senior Auditor




                                                                                       Page 14
                        Significant Improvements Have Been Made to
                       Protect Sensitive Data on Laptop Computers and
                           Other Portable Electronic Media Devices



                                                                       Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Information Officer OS:CTO
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Director, Cybersecurity Programs and Policies OS:CTO:C:PP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Technology Officer OS:CTO
       Associate Chief Information Officer, Cybersecurity OS:CTO:C




                                                                             Page 15
         Significant Improvements Have Been Made to
        Protect Sensitive Data on Laptop Computers and
            Other Portable Electronic Media Devices



                                                 Appendix IV

Management’s Response to the Draft Report




                                                         Page 16
 Significant Improvements Have Been Made to
Protect Sensitive Data on Laptop Computers and
    Other Portable Electronic Media Devices




                                                 Page 17
 Significant Improvements Have Been Made to
Protect Sensitive Data on Laptop Computers and
    Other Portable Electronic Media Devices




                                                 Page 18
